^(KyTsdta^C
Btetrict of Columfria
Court of Appeals
No. 19-CO-723
SEP 15 2020

ELMER W. GRANT, JR.,
Appellant,
v.

FEL3454-97

UNITED STATES,
Appellee.
BEFORE:

Blackbume-Rigsby, Chief Judge; Glickman, Thompson, Beckwith,
Easterly and Deahl, Associate Judges.
ORDER

On consideration of appellant’s petition for rehearing en banc; and it
appearing that no judge of this court has called for a vote on the petition for rehearing
en banc, it is
ORDERED that appellant’s petition for rehearing en banc is denied.
PER CURIAM
Copies to:
Honorable Ronna Lee Beck
Director, Criminal Division
Elmer W. Grant, Jr.
FED# 10248-007, Big Sandy
P.O. Box 2068
Inez, KY 41224
Copies e-served to:
Elizabeth Trosman, Esquire
Assistant United States Attorney

®tetrict of Columfita
Court of Appeals?

' “v¥-?o

L_i |
wm 26 2020

No. 19-60-723

DISTRICT OF COLUMBIA
COURT OF APPEALS

ELMER W. GRANT, JR.,
Appellant,
v.

1997 FEL 3454

UNITED STATES,
Appellee.
BEFORE:

Glickman, Thompson, and Beckwith, Associate Judges.
JUDGMENT

On consideration of appellee’s motion for summary affirmance, appellant’s
lodged opposition, appellant’s brief and limited appendix, and the record on appeal,
it is
ORDERED, sua sponte, that the lodged opposition is hereby filed. It is
FURTHER ORDERED that appellee’s motion for summary affirmance is
granted. See Watson v. United States, 73 A.3d 130, 131 (D.C. 2013); Oliver T. Carr
Mgmt., Inc. v. Nat’l Delicatessen, Inc., 397 A.2d 914, 915 (D.C. 1979). Appellant
cites no authority for the proposition that a defendant has the right to be present for
the selection of grand jurors. See generally In re Public Defender Service, 831 A.2d
890, 904 (D.C. 2003) (“Grand jury proceedings have traditionally been kept
secret[.]”); Super. Ct. Crim. R. 6(d)(1) (“The following persons may be present
while the grand jury is in session: attorneys for the government, the witness being
questioned, interpreters when needed, and a court reporter or an operator of a
recording device.”). Even assuming without deciding that some error inhered in the
grand jury proceedings culminating in appellant’s indictment, and that no procedural
hurdles prevented him from raising such claims in his sixth collateral attack over
twenty years after sentencing, as “[mjeasured by the petit jury’s verdict... any error
in the grand jury proceeding connected with the charging decision was harmless
beyond a reasonable doubt.” Williams v. United States, 75 A.3d 217, 222 (D.C.
2013) (quoting United States v. Mechanik, 475 U.S. 66, 70 (1986)). Although
Williams and Mechanik specifically concerned testimonial irregularities rather than
an unqualified grand juror or a vote not taken in open court, we perceive no reason

No. 19-CO-723
why such errors are not equally harmless in light of the petit jury finding appellant
guilty beyond a reasonable doubt. See Williams, 75 A.3d at 222 (“Effectively, the
Supreme Court determined that the supervening jury verdict demonstrated a fortiori
that probable cause existed.”) (citing Mechanik, 475 U.S. at 70). The trial court
therefore did not abuse its discretion in summarily denying appellant’s motion. See
generally Meade v. United States, 48 A.3d 761, 765 (D.C. 2012) (“Although a
general presumption exists in favor of an evidentiary hearing in cases involving a
collateral attack on a conviction, no hearing is required... where defendant’s motion
consists of. .. allegations that would merit no relief even if true.”). It is
FURTHER ORDERED and ADJUDGED that the order on appeal is affirmed.
ENTERED BY DIRECTION OF THE COURT:

; a.
JULIO M CASTILLO
Clerk of the Court

Copies mailed to:
Honorable Ronna Lee Beck
Director, Criminal Division
Elmer W. Grant, Jr. - FR #10248-007
USP Big Sandy
P.O. Box 2068
Inez, KY 41224

Copy e-served to:
Elizabeth Trosman, Esquire
Assistant United States Attorney
cml

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CRIMINAL DIVISION
UNITED STATES OF AMERICA

v.

) CASE NO. 1997 FEL 003454
)
)

) JUDGE RONNA LEE BECK
ELMER GRANT, JR.

1
ORDER DENYING MOTION

Before the court is Defendant’s pro se “Motion to Challenge the Jurisdiction and,
>

Motion to Vacate Judgment and Motion to Dismiss and, Motion to Reverse & Dismiss
Indictment for Fed. R. Crim. P. 6 Violations & Lack of Jurisdiction and, Motion to
Dismiss Pursuant to Rule 60(b)(6) and Rule 6(b)(2) and Code § 11-1910 and, Motion for
Immediate Release.”1 Defendant claims his convictions must be vacated because he
was not present during grand jury proceedings, rendering his indictment defective and
stripping the court of jurisdiction over his case. Def. Mot. at 4-6.
Assuming purely arguendo there was some deficiency in Defendant’s grand jury
proceedings, a “petit jury’s verdict renders] harmless any conceivable error in the
charging decision” or grand jury proceedings. See United States v. Mechanik, 475 U.S.
66, 73 (U.S. 1986). “In such a case, the societal costs of retrial after a jury verdict of
guilty are far too substantial to justify setting aside the verdict simply because of an
error in the earlier grand jury proceedings,” Id. Here, on October 8, 1998, a petit jury
found Defendant guilty of several counts, including first-degree felony murder while

1 Judge Cushenberry, who previously presided over this matter, took Senior Status effective December
17, 2015. Per the Chief Judge’s Administrative Order No. 18-19, the undersigned judge is paired with,
Judge Cushenberry, and is designated to hear all matters that would normally be heard by Judge v
Cushenberry.

1

\
\

L

armed. Defendant’s claim is entirely without merit.2 Accordingly, it is this 31st day of
\

July, 2019, hereby
ORDERED that Defendant’s motion is DENIED.

Judge Ronna Lee Beck
(Signed in Chambers)
Copies Eserved on:
Margaret Chriss, Chief, Special Proceedings
through Jessie Liu, United States Attorney
Copies Emailed to:
Special Proceedings Division
USADC.ECFSpecialProceedinQS@usdoi.aov
Margaret Chriss, Chief Special Proceedings
T. Anthony Quinn, Deputy Chief, Special Proceedings
Copy mailed from chambers to:
Elmer W. Grant - # 10248-007
U.S. Penitentiary McCreary
P.O. Box 3000
Pine Knot, KY 42635
Pro Se Defendant

2 In addition, Defendant’s motion is procedurally barred. His failure to raise the instant claim in his first two
D.C. Code § 23-110 motions precludes him from raising them now under the "abuse of the writ” doctrine.
Thomas v. United Slates, 772 A.2d 818, 824 (D.C. 2001) (citing McClesky v. Zant, 499 U.S. 467, 490
(1991)).
2

